D-2009-095                                   July 29, 2009




        Contracting for Transportation Services for
    U.S. Army Corps of Engineers, Gulf Region Division
Additional Information and Copies
30B




To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
31B




To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
32B




COR                           Contracting Officer’s Representative
DCAA                          Defense Contract Audit Agency
FAR                           Federal Acquisition Regulation
GRD                           Gulf Region Division
HAV                           Heavy Armored Vehicle
IG                            Inspector General
LAV                           Light Armored Vehicle
MLV                           Master List of Vehicles
NTV                           Nontactical Vehicle
QASP                          Quality Assurance Surveillance Plan
SOP                           Standard Operating Procedure
SOW                           Statement of Work
USACE                         U.S. Army Corps of Engineers
                                 INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                   400 ARMY NAVY DRIVE
                              ARLINGTON, VIRGINIA 22202-4704


                                                                           JUL 2 9 2009



MEMORANDUM FOR COMMANDER, U.S. ARMY CORPS OF ENGINEERS,
                GULF REGION DIVISION
               DIRECTOR, GULF REGION DIVISION CONTRACTING
                DIVISION

SUBJECT: Contracting for Transportation Services for U.S. Army Corps of Engineers,
         Gulf Region Division (Report No. D-2009-(95)

We are providing this draft report for review and comment.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. The
Commander, U.S. Army Corps of Engineers, Gulf Region Division and Director, Gulf
Region Division Contracting Division did not provide comments to the draft report. We
request comments on Recommendations A. I., A.2., B.l., and B.2. by August 28,2009.
Please see the recommendations table on page ii.

Please provide comments that conform to the requirements of DoD Directive 7650.3. If
possible, send your comments in electronic format (Adobe Acrobat file only) to
audros@dodig.miL Copies of your comments must have the actual signature of the
authorizing official for your organization. We are unable to accept the / Signed / symbol
in place of the actual signature. If you arrange to send classified comments
electronically, you must send them over the SECRET Internet Protocol Router Network
(SIPRNET).

We appreciate the courtesies extended to the stafT. Please direct questions to me at
(703) 604-8905 (DSN 664-89(5).




                                             Assistant Inspector General
                                             Readiness, Operations, and Support
Report No. D-2009-095 (Project No. D2008-D000LH-0235.002)                               July 29, 2009


               Results in Brief: Contracting for
               Transportation Services for U.S. Army Corps
               of Engineers, Gulf Region Division

What We Did
0B                                                       What We Recommend
                                                         2B




Our overall audit objective was to determine the         We recommend that the Commander, GRD
effectiveness of U.S. Army Corps of Engineers,           issue and enforce effective polices for inventory
Gulf Region Division contracting for nontactical         and invoice reconciliation; develop and enforce
vehicles and transportation services in support          justification and utilization standards for
of Operation Iraqi Freedom. This audit is in             vehicles; and develop and implement a quality
response to the National Defense Authorization           assurance surveillance plan.
Act for FY 2008.
                                                         We also recommended that the Director, GRD
What We Found
1B
                                                         Contracting Office establish internal controls
We found that the Army Corps of Engineers,               that will ensure contracting officer’s
Gulf Region Division (GRD) did not effectively           representatives comply with responsibilities
administer the task order for transportation             outlined in appointment letters, specifically
services because it did not establish or                 related to contractor surveillance and
implement processes for invoice and inventory            performance monitoring.
reconciliation and discrepancy resolution. In
addition, it did not establish standard policies         Management Comments
                                                         3B




for justification and utilization of nontactical         We issued the draft report on May 5, 2009. We
vehicles. As a result, discrepancies in vehicle          did not receive management comments in
inventories could cost GRD at least $1.2 million         response to the draft report. The Commander,
a year for vehicles it may not currently have.           GRD and the Director, GRD Contracting
                                                         Division should provide comments in response
We also found that GRD could not provide                 to this report by August 28, 2009. Please see
assurance that the contractor complied with all          the recommendation table on the back of this
contract requirements for transportation services        page.
under task order 17. This occurred because
GRD did not develop and implement a quality
assurance surveillance plan or ensure that
contracting officer’s representatives adequately
documented contractor performance. As a
result, GRD cannot validate that it received
transportation services totaling approximately
$69.9 million.

These deficiencies in administration and
oversight of contracts for transportation services
constitute a weakness in the internal controls.
GRD can improve these deficiencies by
implementing our recommendations.



                                                     i
Report No. D-2009-095 (Project No. D2008-D000LH-0235.002)           July 29, 2009

Recommendations Table
4B




Entity                           Recommendations            No Additional Comments
                                 Requiring Comment          Required
Commander, U.S. Army Corps of    A.1.
Engineers,                       B.1.
Gulf Region Division

Director, Gulf Region Division   A.2.
Contracting Division             B.2.


Please provide comments by August 28, 2009.




                                          ii
Table of Contents

Results in Brief                                                          i

Introduction                                                              1

       Objective                                                         1
       Background                                                        1
       Review of Internal Controls                                       3

Finding A. Contract Administration for Transportation Services for
U.S. Army Corps of Engineers, Gulf Region Division                        4

       Recommendations                                                    9

Finding B. Oversight of Transportation Services for U.S. Army Corps of
Engineers, Gulf Region Division                                          11

       Recommendations                                                   14

Appendix

       Scope and Methodology                                             15
        Prior Coverage                                                   15
Introduction
Objective
5B




Our overall audit objective was to determine whether contracting for nontactical vehicles
in support of Operation Iraqi Freedom was effective. Specifically, we reviewed how the
U.S. Army Corps of Engineers (USACE) contracted for transportation services in Iraq.
See the appendix for a discussion of the scope, methodology, and prior coverage.

Background
6B




We performed this audit as required by Public Law 110-181, “National Defense
Authorization Act for Fiscal Year 2008,” January 28, 2008, section 842, “Investigation of
Waste, Fraud, and Abuse in Wartime Contracts and Contracting Processes in Iraq and
Afghanistan,” January 28, 2008. Section 842 requires thorough investigation and
auditing in order to identify potential waste, fraud, and abuse in the performance of DoD
contracts, subcontracts, and task and delivery orders for the logistical support of coalition
forces in Iraq and Afghanistan. Further, Section 842 requires thorough investigation and
auditing of Federal agency contracts, subcontracts, and task and delivery orders for the
performance of security and reconstruction functions in Iraq and Afghanistan.

     In response to the Act, we collaborated with the Inspectors General of the Department of
     State and U.S. Agency for International Development, the Special Inspector General for
     Iraq Reconstruction, the Auditors General of the U.S. Army Audit Agency and U.S. Air
     Force Audit Agency, and the Director of the Defense Contract Audit Agency (DCAA) to
     develop a comprehensive audit plan for Southwest Asia. The audit plan includes key
     issue areas, such as financial management, systems contracts, and human capital for
     contract administration. This plan highlighted ongoing and planned work for each of
     these agencies, and identified the purchasing and leasing of vehicles in support of
     Operation Iraqi Freedom and Operation Enduring Freedom, an audit issue area.

U.S. Army Corps of Engineers, Gulf Region Division
7B




The U.S. Army Corps of Engineers has an ongoing mission to assist in rebuilding
infrastructures in Iraq and Afghanistan in support of the Global War on Terror. USACE
Gulf Region Division (GRD), headquartered in Baghdad, Iraq, provides engineering for
military and civil construction, delivers logistical services, and assists the Iraqi
government in assuming responsibility for national reconstruction.

On January 20, 2006, the USACE Transatlantic Programs Center issued a task order
solicitation for life support services in Iraq to nine contractors listed on an indefinite-
delivery, indefinite-quantity construction contract. The services in this solicitation
included, but were not limited to, transportation services, minor construction, facilities
maintenance, and procurement of office supplies. The solicitation was a cost-
reimbursable (cost-plus-award-fee) task order with a base period of 1 year and four
option periods of 6 months each, for a total of 3 years.



                                                1
On April 10, 2006, the Transatlantic Programs Center awarded the task order for life
support services to Fluor Intercontinental, Incorporated (Fluor), as task order 17 under
indefinite-delivery, indefinite-quantity contract W912ER-04-D-0004. On April 12, 2006,
the Transatlantic Programs Center transferred administration of task order 17 to the GRD
Contracting Division.

GRD is currently in the fourth option period of this task order. Table 1 below outlines
the base period and four option periods of the task order.

       Table 1. W912ER-04-D-0004, Task Order 17 Periods of Performance
Period of Performance    Start Date                 End Date
Base period              May 16, 2006               April 14, 2007
Option period one        April 15, 2007             February 28, 2008
Option period two        February 29, 2008          August 26, 2008
Option period three      August 27, 2008            February 22, 2009
Option period four       February 23, 2009          August 21, 2009

Transportation Services
8B




For task order 17, transportation services includes providing nontactical vehicles (NTVs),
light armored vehicles (LAVs), and heavy armored vehicles (HAVs), as well as routine
maintenance, repairs, and towing. The initial task order also included dispatch services,
but GRD revised the statement of work (SOW) in February 2008 transferring dispatch
responsibilities to GRD.

Transportation services have accounted for at least 28 percent of the overall cost for life
support services under task order 17. As of December 30, 2008, Fluor had billed GRD
$69.89 million1 for transportation services and $249.64 million2 for all life support
                      FFF




services under task order 17.

Fluor provided a fleet of leased vehicles, including HAVs, LAVs, and NTVs, that
changed over the course of the task order. The number of leased vehicles Fluor provided
fluctuated between 177 and 325 vehicles. Table 2 identifies the number of leased
vehicles provided by Fluor and the total number of vehicles in the GRD fleet.




1
     This total does not include all general and administrative costs, base fees, or award fees.
2
     This total includes base and award fees.


                                                          2
                       Table 2. Vehicles Identified in the SOW for
                      Contract W912ER-04-D-0004, Task Order 17
                                                    Total Vehicle Percent of Fleet
     Period of Performance Vehicles Leased
                                                         Fleet        Leased
     Base period                     245                 462            53
     Option period one               177                 384            46
     Option period two               325                 640            51
     Option period three             325                 640            51
     Option period four              321                 654            49

Review of Internal Controls
9B




We determined that an internal control weakness for contracting of transportation
services existed as defined by DoD Instruction 5010.40, “Managers’ Internal Control
(MIC) Program Procedures,” January 4, 2006. GRD did not have adequate procedures in
place to provide oversight of transportation services under contract W912ER-04-D-0004,
task order 17. Specifically, GRD did not establish or implement processes for invoice
and inventory reconciliation and discrepancy resolution or update policies for
justification and utilization of nontactical vehicles. In addition, GRD did not develop and
implement a quality assurance surveillance plan, or ensure that contracting officer’s
representatives adequately documented contractor performance. Implementing all of the
recommendations presented in this report will improve the internal controls over the
contracting of transportation services. We will provide a copy of this report to the senior
USACE official responsible for internal controls.




                                            3
Finding A. Contract Administration for
Transportation Services for U.S. Army Corps
of Engineers, Gulf Region Division
The U.S. Army Corps of Engineers, Gulf Region Division did not effectively administer
the task order for transportation services. This occurred because USACE, GRD did not:

          establish or implement processes for invoice and inventory reconciliation and
           discrepancy resolution, or
          update policies for justification and utilization of nontactical vehicles.

As a result, discrepancies in vehicle inventories could cost USACE, GRD at least
$1.2 million a year for vehicles it may not currently have. In addition, nontactical
vehicles may not be fully justified or utilized.

Reconciling Invoices and Inventories
10B




GRD did not have adequate processes in place to reconcile invoices or vehicle
inventories for transportation services, and did not have effective procedures for
resolving discrepancies when identified. Without these processes and procedures in
place, GRD may be paying at least $1.2 million per year for vehicles it may not currently
have.

Invoice Reconciliation
24B




GRD did not establish or implement adequate processes to reconcile invoices with
transportation services received. GRD personnel, including the program manager and
contracting officer, received two invoices per month, but did not reconcile the invoices to
ensure that charges corresponded to the transportation services received and NTV assets
on hand.

According to GRD personnel, Fluor sent invoices for task order 17 to the program
manager, contracting officer, and DCAA. The program manager acknowledged
receiving invoices from the contractor, but did not reconcile all charges on the invoices.
The invoices we reviewed were not detailed enough to reconcile transportation services
without requesting supporting documentation from the contractor. While the program
manager requested supporting documentation and discovered discrepancies when
reconciling charges for office supplies, she did not reconcile invoice charges for
transportation services. According to the program manager, there is no mechanism to
identify the NTVs for which GRD is paying, and no way to determine whether GRD is
overpaying for NTVs. The program manager will only request supporting documentation
from Fluor for specific costs if she determines there is reason to believe a charge is
inappropriate.




                                             4
In addition, neither the contracting officer nor the contracting officer’s representatives
(CORs) reconciled invoices for transportation services for task order 17. The contracting
officer did not maintain or reconcile the invoices for task order 17, while the CORs for
task order 17 did not receive invoices,3 and therefore could not verify whether GRD
received the services for which the contractor billed.

DCAA officials verified that they received invoices for task order 17, conducted a
cursory review, and signed the invoices, as part of a contractual requirement with Fluor,
before sending them back to the program manager. DCAA officials verified that they do
not conduct individual invoice audits or reconcile the invoices with services performed
on behalf of GRD, but stated that they randomly reconcile invoices to the contractor’s
records. DCAA also conducts annual audits to review contractor costs for
reasonableness, allowability, allocability, and compliance with contract terms. The
program manager received the signed invoices from DCAA, signed the invoices, and sent
them to the USACE Finance Center for payment.

In February 2009, the Director of the GRD Contracting Division advised the program
manager for task order 17 to refrain from signing invoices. When the program manager
stopped signing invoices, the invoices were submitted to USACE Finance Center for
payment with only a DCAA signature.

On September 14, 2007, the Office of the Under Secretary of Defense (Comptroller)
released a policy on certified commercial payments in contingency operations to
the Assistant Secretaries of the Military Departments, Directors of the Defense agencies,
and the Commander of USACE. The policy emphasized legal requirements necessary to
certify a voucher for payment and provided certification guidelines for payments made in
contingency operation areas. The policy authorized disbursing officers to disburse
payment only when provided a certified voucher by a properly appointed certifying
officer. The policy also stated that officers who certify payments for commercial goods
and services in contingency operations must ensure that payment amounts are correct,
and added that certifying officers are financially liable for payments not meeting these
requirements.

      Because GRD did not develop or effectively implement processes for reconciling
      invoices, USACE GRD could not provide reasonable assurance that it received the
      services for which the contractor billed, or that payments made to the contractor were
      correct.

Vehicle Inventory Reconciliation and Discrepancy Resolution
25B




Discrepancies in vehicle classifications and inventories between Fluor and GRD existed,
and the processes to resolve these discrepancies were not effective.




3
       As of February 26, 2009, the program manager for task order 17 began sending invoices to the CORs.


                                                        5
Classification of Vehicles
3B




Discrepancies in the classification of LAVs and NTVs existed between Fluor and GRD.
The SOW for task order 17 requires Fluor to maintain a Master List of Vehicles (MLV)
report for all vehicles in the GRD fleet. The MLV report includes leased and
Government-owned vehicles, and identifies the make, model, vehicle identification
number, odometer reading, and date of last service and inspection for each vehicle.
However, the MLV report did not match the inventory list provided by GRD for the same
time period. Specifically, GRD personnel identified 15 LAVs misclassified as NTVs on
Fluor’s MLV report. These discrepancies could impact the invoices for transportation
services because the type of vehicles provided and varying maintenance schedules
partially determine the invoice charges.

Furthermore, the process to resolve discrepancies between GRD and the contractor
records was ineffective. Federal Acquisition Regulation (FAR) Part 46.1, “Quality
Assurance,” states the contracting office is responsible for ensuring that discrepancies are
identified and establishing the significance of a discrepancy. GRD personnel stated that
they identified these discrepancies to Fluor, but that Fluor did not correct them. While
we received Fluor and GRD inventories, we could not determine which inventory list was
accurate.




               Source: USACE GRD

               Figure 1. Light Armored Toyota Land Cruiser

Vehicle Inventories
34B




Discrepancies between Fluor’s MLV report and the inventory lists maintained by GRD
existed. These discrepancies could amount to $1.2 million or more in charges for
vehicles that GRD may not have.




                                             6
In November 2008, Fluor’s MLV report stated that the GRD fleet included 607 vehicles,
394 of which were NTVs. At the same time period, the GRD inventory documentation
showed that the fleet included 555 vehicles, 332 of which were NTVs. Table 3 depicts
the November vehicle inventory counts for Fluor and GRD.

Table 3. Fluor and GRD Inventory Counts by Classification (as of November 2008)
                                                                  Total Fleet
                     HAVs and LAVs           NTVs
                                                                   Strength
Fluor MLV report          213                 394                    607
USACE GRD
                          223                 332                    555
 inventory
Difference                (10)                 62                     52

Fluor’s MLV report identified 52 vehicles not contained on GRD’s inventory lists. A
majority of these vehicles were NTVs with an average monthly cost of $2,083 under task
order 17. As a result, Fluor could have potentially overcharged GRD at least $1.2 million
per year for vehicles it may not have.

      Without reconciling invoices to actual services received or NTV assets on hand, USACE
      GRD could not provide reasonable assurance that it received the services for which the
      contractor billed, or that payments made to the contractor were correct. Furthermore,
      with discrepancies identified for other items on the invoices, it is critical that GRD
      personnel clearly establish roles and responsibilities for contract administration. In
      addition, GRD should establish and implement procedures for reconciling invoices and
      NTV inventories to identify and resolve discrepancies with the contractor. These
      procedures will help ensure accurate charges for life support services.

Standard Operating Procedures for Nontactical Vehicles
1B




GRD Transportation Division did not update standard operating procedures (SOPs) to
address NTV justification or utilization standards for recurring dispatch, and the process
in place for approving NTV justifications for recurring dispatch was not effective. As a
result, GRD may be paying for NTVs that are not fully justified or utilized.

Justification and Dispatch
26B




According to GRD personnel, GRD monitors the justification and dispatch of all vehicles
in the GRD fleet. The GRD Transportation Division monitors NTVs while the GRD
Reconstruction Support Center Operations Division (G3) monitors LAVs and HAVs.
GRD G3 generates requirements for the LAVs and HAVs based on the security mission
and monitors the status of these vehicles closely.




                                                7
               Source: USACE GRD

               Figure 2. LAVs and HAV From the USACE GRD Vehicle Fleet


Nontactical Vehicle Justification for Recurring Dispatch
27B




The GRD transportation SOP did not outline procedures for justifying NTVs on recurring
dispatch. GRD personnel stated that written justifications for recurring dispatch of NTVs
were an annual requirement. The policy requires that the justifications state the unit’s
NTV requirements, mission, and anticipated operating hours and days, as well as cargo
and passenger information. GRD personnel stated that NTVs on recurring dispatch must
be renewed on a monthly basis, and may be pulled by the temporary motor pool for use in
higher priority missions. However, these procedures are not documented in the current
SOP, dated September 19, 2006, and GRD personnel could not provide a policy
document that outlined these procedures.

The process to approve NTV justifications for recurring dispatch was not effective. GRD
required units to submit annual justifications for recurring dispatch of NTVs in
January 2008. However, some justifications did not include all required information. For
example, one justification for 48 NTVs, including sport utility vehicles and pickup
trucks, stated that the NTVs were required “to transport personnel and materials to
various offices and on base project sites.” The justification lacked details of use and
mission. Another justification for three SUVs did not have all the required elements,
such as frequency of use or mileage requirements. GRD personnel acknowledged some
of the justifications were “weak,” but that they approved the NTVs for dispatch
regardless of the justifications. Furthermore, while GRD personnel stated that NTVs
must be justified on an annual basis and that all NTVs must have new justification letters
in January 2009, GRD had not received updated justifications for these NTVs as of
January 29, 2009.




                                            8
Utilization Standards for Nontactical Vehicles
28B




The GRD transportation SOP did not outline standards for NTV utilization. In lieu of
utilization policies, GRD personnel stated that they use utilization standards from Army
regulations and policies in Europe. However, these policies do not have the same
utilization standards, and it is unclear as to which GRD enforces.

U.S. Army Europe Regulation 58-1, “Motor Transportation: Management, Acquisition,
and Use of Nontactical Vehicles,” April 25, 2007, calculates utilization percentage by
dividing the number of days the vehicle is driven by the number of days the vehicle is
available for use. The regulation states that the minimum monthly utilization percentage
is 80 percent, and that all NTVs falling below this threshold for 3 consecutive months
should be identified and analyzed for potential return to the NTV fleet.

U.S. Army Garrison-Giessen procedures, “Standard Operating Procedures (SOP) for the
Transportation Motor Pool (TMP),” October 27, 2005, calculates vehicle utilization using
mileage, passenger and cargo requirements, idle time, and military mission requirements.
Vehicles on a recurring dispatch that fail to show at least 85 percent utilization or
500 miles driven may be reassigned.

The utilization requirements referenced by GRD transportation personnel identify
different standards for utilization. It is unclear as to which standards GRD
implemented. Without NTV justification and utilization standards, NTVs may not be
fully justified or may be underutilized. In January 2009, the GRD transportation chief
stated GRD was working to update its transportation SOP. We encourage GRD to
establish and address justification and utilization standards for NTVs to ensure NTVs are
fully justified and utilized.

Conclusion
12B




Contract administration of transportation services for GRD under task order 17 needed
improvement. Unless improved, the issues we identified will continue to preclude GRD
from increasing the efficiency of transportation services under this task order. By
correcting invoice and inventory discrepancies and establishing formal processes for
discrepancy resolution, GRD will make steps toward improving the assurance that
payments are made for services received and assets on hand. Updating and enforcing
justification requirements and utilization standards will also increase assurance that all
vehicles acquired for GRD are fully justified and utilized based on mission requirements.

Recommendations
13B




A.1. We recommend the Commander, U.S. Army Corps of Engineers, Gulf Region
Division:

      a. Issue and enforce effective policies for inventory and invoice reconciliation that
         clearly define the roles and responsibilities of contract and program management
         personnel; and



                                              9
   b. Develop and enforce justification requirements and utilization standards for
      recurring dispatch of nontactical vehicles, and update the Gulf Region Division
      Transportation standard operating procedures to reflect these policies.

A.2. We recommend the Director, Gulf Region Division Contracting Division:

   a. Review all prior invoices and reconcile with the contractor services received and
      services billed;

   b. Reconcile and resolve inventory discrepancies with the contractor; and

   c. Develop specific procedures for notifying the contractor of discrepancies to
      ensure invoices and vehicle inventories accurately reflect these policies.

Management Comments Required
The Commander, U.S Army Corps of Engineers, Gulf Region Division and the Director,
Gulf Region Division Contracting Division did not comment on a draft of this report. We
request that they provide comments on the final report.




                                          10
Finding B. Oversight of Transportation
Services for U.S. Army Corps of Engineers,
Gulf Region Division
The U.S. Army Corps of Engineers, Gulf Region Division could not provide reasonable
assurance that the contractor complied with all contract requirements for transportation
services under task order 17. This occurred because Gulf Region Division officials did
not develop and implement a quality assurance surveillance plan (QASP), or ensure that
contracting officer’s representatives adequately documented contractor performance. As
a result, Gulf Region Division cannot validate that it received transportation services
totaling approximately $69.9 million.

Quality Assurance Surveillance Plan
14B




As of December 30, 2008, GRD had spent approximately $69.9 million on transportation
services under task order 17. However, GRD did not establish or implement quality
assurance measures to monitor contractor performance. Specifically, GRD lacked a
QASP and adequate documentation of contractor performance, and did not establish roles
and responsibilities for monitoring contractor performance. COR surveillance reporting
was minimal and did not detail services performed by the contractor. Therefore, GRD
cannot provide assurance that it received $69.9 million in transportation services.

      GRD did not develop and implement a QASP for task order 17. The FAR and Defense
      Federal Acquisition Regulation Supplement require the Government to perform quality
      assurance during the performance of services to determine whether the services conform
      to contract requirements. The FAR requires the QASP to specify all work requiring
      surveillance and the method of surveillance and suggests a QASP be prepared in
      conjunction with the preparation of the SOW. Additionally, the FAR states a QASP is
      essential to ensuring the integrity of contractor services.

      On February 9, 2007, the Deputy Assistant Secretary of the Army, Policy and
      Procurement issued policy to USACE on contract administration and surveillance for
      service contracts. The policy requires a QASP for all contract actions greater than $2,500
      to ensure that the Government receives and pays for only the quality of services outlined
      in the contract, and to ensure systematic quality assurance methods are used during
      contract administration.

      The contracting officer for task order 17 stated that GRD accepted the quality control
      plan that Fluor submitted. However, GRD did not prepare a QASP. GRD should
      develop a QASP for all life support services, including transportation services. This plan
      should specify all work requiring surveillance, and may include delegation of oversight




                                                  11
responsibilities to the CORs and program manager. GRD should also issue policy and
establish internal controls that clearly define the roles and responsibilities of monitoring
contractor performance.

Transportation Contracting Officer’s Representative
15B




GRD Contracting Division did not ensure that the transportation COR fulfilled the duties
of contract surveillance as it pertains to documentation of contractor performance. As of
November 2008, the contracting officer assigned five CORs for task order 17, which
included a COR for each GRD region (North, South, and Central), one at GRD
Headquarters, and one specifically for transportation services.

      The transportation COR, assigned from February 2007 to December 2008, was
      responsible for performing and documenting surveillance of contractor performance,
      including inspecting and accepting services, monitoring the contractor’s performance,
      and effectively communicating deficiencies and facilitating corrective action. The
      transportation COR was also required to maintain a COR file including, but not limited
      to, documentation of inspections performed and acceptance of services performed by the
      contractor. However, the GRD transportation chief of staff and the contracting officer
      were unable to provide the GRD transportation COR file, stating that the file was not
      maintained as required or that it was not retained.

      Surveillance activity checklists prepared by the transportation COR were not sufficient to
      reconcile transportation services performed. The transportation COR was required to
      submit to the contracting officer a monthly report concerning performance of services
      rendered. While the transportation COR provided the contracting officer with a
      surveillance activity checklist that evaluated the contractor’s compliance with the SOW,
      the surveillance checklist only had “yes” and “no” responses and some brief narratives on
      Fluor’s performance. The checklist did not identify the number of vehicles provided or
      frequency of servicing, and was not sufficient to reconcile transportation services
      performed. The GRD Contracting Division should establish and implement reporting
      requirements that will ensure CORs provide sufficient documentation to reconcile
      transportation services performed.

Contract Monitoring
16B




The GRD Contracting Division did not sufficiently monitor contract terms to ensure
maximum dollar value and time thresholds identified in the original contract were not
exceeded. The FAR states that an indefinite-quantity contract provides for an indefinite
quantity, within stated limits, of supplies or services during a fixed period, and quantity
limits may be stated as number of units or dollar value. When the base contract was
awarded in April 2006, it identified maximum dollar value thresholds for each
performance period, and identified that the total cost of the contract would not exceed
$14 million. While contracting officers modified the contract to increase the cost
thresholds throughout the life of the contract, GRD exceeded the original threshold by
more than $55.8 million, as of December 30, 2008.




                                                 12
Table 4 details the maximum thresholds identified in the base period SOW and compares
those to the actual amounts expensed as of December 30, 2008.

    Table 4. Dollar Values by Performance Period Expensed for Transportation
            Services, Excluding Base Fees, Award Fees, and General and
                   Administrative Fees (as of December 30, 2008)
                                    (in millions)
                                                           Option
                               Option         Option
              Base Period                                  Period      Totals
                             Period One Period Two
                                                           Three*
Maximum
 costs from        $5.0          $2.9           $3.0         $3.1       $14.0
 SOW
Actual
 amount           $31.2         $29.5           $6.7         $2.4       $69.8
 expensed
Difference       ($26.2)       ($26.6)         ($3.7)        $0.7      ($55.8)
* Dollar values as of December 30, 2008. Option period three continued through February 2009.

Exceeding the original contract terms by almost 400 percent could potentially have
affected the competition for this task order. The original solicitation for this contract was
issued to nine contractors; however, only two contractors responded. Had GRD officials
provided a more accurate estimation of their need for life support services in the
solicitation, other contractors may have submitted proposals and generated additional
competition for this task order.

In addition, GRD officials initiated the process to exercise option period four, which will
exceeded the maximum time frame identified in the original SOW. The performance
period for the base task order was effective May 16, 2006, for 1 year, with four option
periods of 6 months each, bringing the total life of the contract to 3 years. The base
contract identifies that the total duration of this contract, including the exercise of any
options, will not exceed 3 years. Therefore, services provided for life support under task
order 17 should not be provided beyond May 15, 2009. On February 23, 2009, GRD
officials initiated the process to exercise option period four, which will continue services
through 2009. Fully exercising option period four would put the total life of the task
order at 3 years and 3 months.

Conclusion
17B




Contract quality assurance and contract oversight of transportation services for USACE,
GRD under task order 17, needed improvement. Absence of a QASP and effective
contract monitoring has precluded GRD from validating that it received transportation
services totaling approximately $69.9 million. Unless GRD establishes and implements
appropriate contractor surveillance, such as a QASP and effective COR oversight and




                                                  13
reporting, GRD will continue to be at risk of being overbilled for transportation services.
Furthermore, effective quality assurance and contract oversight will ensure supplies and
services conform to contract requirements and are in the best interest of the Department.

Recommendations
18B




B.1. We recommend the Commander, U.S. Army Corps of Engineers, Gulf Region
Division develop and implement a quality assurance surveillance plan for transportation
services, specifically for future contracts, that clearly outlines roles and responsibilities
for monitoring contractor performance.

      B.2. We recommend the Director, Gulf Region Division Contracting Division establish
      internal controls that will ensure contracting officer’s representatives provide and
      maintain sufficient documentation to verify transportation services performed by the
      contractor and reconcile invoices for transportation services.

Management Comments Required
The Commander, U.S Army Corps of Engineers, Gulf Region Division and the Director,
Gulf Region Division Contracting Division did not comment on a draft of this report. We
request that they provide comments on the final report.




                                                14
Appendix. Scope and Methodology
We conducted this performance audit from June 2008 to April 2009 in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.

Our audit scope includes one contract award in May 2006 for the lease of NTVs in
support of USACE GRD in Iraq. We reviewed official contract files at USACE for
documentation of award, quality assurance plans, and contracting officer and COR
responsibilities. We also reviewed additional documentation provided by contracting and
program management personnel, such as transportation services provided and inventory
records. We reviewed guidance, including Federal, DoD, and Department of the Army
policies, as well as local operating procedures, policy letters, and SOPs relevant to
transportation services. The publications we reviewed range in date from August 2004 to
June 2007. We also interviewed personnel from the following organizations:

         U.S. Army Corps of Engineers, Headquarters
         U.S. Army Corps of Engineers, Transatlantic Programs Center
         U.S. Army Corps of Engineers, Gulf Region Division, Contracting Division
         U.S. Army Corps of Engineers, Gulf Region Division, Program Management
         U.S. Army Corps of Engineers, Gulf Region Division, Reconstruction Support
          Operations Center (G3)
         U.S. Army Corps of Engineers, Gulf Region Division, Transportation (G4)
         Defense Contract Audit Agency


Use of Computer-Processed Data
19B




We reviewed invoices in the form of Excel Spreadsheets as well as Adobe files provided
by the audit client during this audit and the contractor. We determined that these
computer-processed data were sufficiently reliable for our use.

Prior Coverage
20B




During the last 5 years, the DoD Inspector General (IG) has issued one report addressing
issues related to contract surveillance on service contracts. Unrestricted DoD IG reports
can be accessed at http://www.dodig.mil/audit/reports.
                    U                                U




DoD IG
29B




DoD IG Report No. D-2006-010, “Contract Surveillance for Service Contracts,”
October 28, 2005




                                            15
